                  A Framework for Delivery
                    Network Optimization




                           September 10, 2012




Prepared by U.S. Postal Service Office of Inspector General
            Report Number: RARC-WP-12-015
U.S. Postal Service Office of Inspector General                                                September 10, 2012
A Framework for Delivery Network Optimization                                                    RARC-WP-12-015



             A Framework for Delivery Network Optimization


                                         Executive Summary

The U.S. Postal Service’s delivery network is unparalleled. Consisting of 252,000 carrier
routes originating from more than 23,000 delivery facilities, it is the foundation of a
universal service infrastructure that spans the vast geography and demography of the
United States and reaches every household and business, six days a week. This first
and last mile coverage is a core competency. It constitutes a clear comparative
advantage for the Postal Service that needs to be maintained and strengthened.

The Postal Service’s delivery and retail networks have been coupled organizationally
and physically since delivery services were first established almost 150 years ago. Most
delivery units house retail service as well as space for carriers to receive mail from the
mail processing plant and case it into route sequence. Last year, the U.S. Postal
Service Office of Inspector General (OIG) found shared management for retail and
delivery no longer made sense. We advocated the strategic decoupling of retail from
delivery to allow management to define roles more clearly, measure results more
precisely, and design operations more effectively.1 Delivery operations require low-cost
facility space that has easy access to carrier routes, but retail needs convenient
customer locations to maximize net revenue.

The OIG has previously presented a strategy for a future mail processing network and a
framework for optimizing the retail network.2 The retail analysis focused on the unique
characteristics of retail and did not include the complications from delivery co-location.
This paper attempts a similar focus on delivery. Concentrating on each network
separately is practical for initial modeling efforts.

The facility needs of the Postal Service’s delivery network have changed. As letter and
flat mail volumes have declined and more mail is sorted in the same sequence as
carriers travel, carriers spend less time in the office casing mail and more time
delivering mail on the streets. As a result, the Postal Service has been able to
consolidate carrier routes, reducing the need for carrier space in facilities.3 The average
amount of floor space per carrier route in the present network is 366 square feet per
carrier route. This exceeds the Postal Service efficiency standard of either 130 or 180

1
  U.S. Postal Service Office of Inspector General, Retail and Delivery: Decoupling Could Improve Service and Lower
Costs, Report No. RARC-WP-11-009, September 22, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-009.pdf.
This report judges that decoupling would have the greatest practical benefit in the urban and suburban areas.
2
  U.S. Postal Service Office of Inspector General, A Strategy for a Future Mail Processing & Transportation Network,
Report No. RARC-WP-11-006, http://www.uspsoig.gov/foia_files/RARC-WP-11-006.pdf and Analyzing the Postal
Service's Retail Network Using an Objective Modeling Approach RARC-WP-10-004, June 14, 2010,
http://www.uspsoig.gov/foia_files/RARC-WP-10-004.pdf.
3
  In addition, in some cases, there could be excess space due to space planning that was based on past projections
of increasing mail volumes. Alternatively, some excess space could also just be a carryover from a time with higher
demand or different demographics.


                                                          i
U.S. Postal Service Office of Inspector General                                                     September 10, 2012
A Framework for Delivery Network Optimization                                                         RARC-WP-12-015


square feet per carrier and represents a significant opportunity for resource savings
through a concerted consolidation effort.4

This paper presents analysis that focuses on optimizing the use of space in the delivery
network by exploring consolidation opportunities within the existing footprint. The
analytical model starts with existing delivery units and considers how to make changes
that enhance the delivery network’s efficiency while meeting the demand for delivery
and operational needs. Delivery units must be large enough to accommodate the space
needed for in-office work and close enough to carrier routes to minimize total costs. This
approach balances the inherent tradeoff of facility and labor costs against carrier travel
costs. Because most delivery units also offer retail services, the model assumes that
retail services in closed delivery units can transition to other existing retail units.

The results of our analysis show that a much smaller network of 13,917 delivery units —
9,835 fewer than at present — is sufficient to meet existing delivery needs. This new
optimized network would reduce Postal Service costs by $1.0 billion per year.5 A
delivery network with fewer units holding more carrier routes would promote drop
shipping for mailers by making it easier to achieve minimum volume requirements.
These mailer benefits could potentially increase mail volume and improve the
sustainability of mail.

The Postal Service could greatly benefit from modeling techniques as it considers
strategies for rationalizing the delivery network. Of course, as with all models, the
results depend on the inputs and assumptions used. We present two scenarios, but the
model presented here could be adapted to allow Postal Service management to
evaluate additional alternatives. As the Postal Service reviews its core competency of
first and last mile delivery, an operations research modeling framework would help
guide decision makers in assessing design alternatives for different future scenarios.




4
  Postal Service engineering standards dictate that the first 25 carrier routes each require 180 square feet while
subsequent carrier routes require 130 square feet. The scenarios we consider conservatively require the full 180
square feet for all routes; even so, the space needs of the Postal Service might be different in a world with
significantly expanded parcel demand.
5
  This analysis assumes retail units in closed delivery facilities are also closed. The Postal Service could instead
choose to keep retail within these facilities or relocate these retail units to maintain service. These options would
reduce the cost savings. The model can be adjusted to accommodate these scenarios or any other scenarios the
Postal Service chooses.


                                                            ii
U.S. Postal Service Office of Inspector General                                                             September 10, 2012
A Framework for Delivery Network Optimization                                                                 RARC-WP-12-015


                                                 Table of Contents

Introduction ..................................................................................................................... 1 
          Current Postal Service Delivery Network Optimization Efforts.............................. 2 
          Benefits of a Global Optimization Model ............................................................... 2 

Current Delivery Network ................................................................................................ 3 

Delivery Model Description .............................................................................................. 5 

Delivery Model Results.................................................................................................... 9 

Conclusion .................................................................................................................... 13 




                                                                 iii
U.S. Postal Service Office of Inspector General                         September 10, 2012
A Framework for Delivery Network Optimization                             RARC-WP-12-015


                                                  Tables

Table 1: Delivery Model Results                                                          9 

Table 2: Delivery Model Detailed Results                                                 9 

Table 3: ZIP Code Population Density Categories                                          21 

Table 4: Model Reflection of Current Costs versus the Actual Costs                       30 




                                                  Figures

Figure 1: Current Delivery Units and Service Areas for Los Angeles District                  3 

Figure 2: Retail and Delivery Facilities and Contract Postal Units                       4 

Figure 3: Delivery Model Cost Components                                                 5 

Figure 4: Illustration of Modeling Framework – Baseline Network                          8 

Figure 5: Illustration of Modeling Framework – Optimal Network                           8 

Figure 6: Number of Carrier Routes in Units with Number of Routes                            10 

Figure 7: Carrier Routes by Travel Distance                                                  11 

Figure 8: Optimal Service Areas for Los Angeles District                                     12 

Figure 9: National Map of Census Regions and Population Density Groups                   21 


                                            Appendices

Appendix A         Workload to Workhour Relationship                                     15 

Appendix B         Model Formulation and Scenarios                                       16 

Appendix C         Results in Detail                                                     21 

Appendix D         Data Sources                                                          29 

Appendix E         Actual versus Baseline                                                30 



                                                    iv
U.S. Postal Service Office of Inspector General                                              September 10, 2012
A Framework for Delivery Network Optimization                                                  RARC-WP-12-015




            A Framework for Delivery Network Optimization

Introduction
The Postal Service faces the challenge of a rapidly changing environment for mail
service. The changes have highlighted the need to rationalize the Postal Service’s
operational networks, including the delivery network. In addition, they have prompted a
fundamental reexamination of the services the Postal Service’s offers and how they are
provided.

Delivery operations have been coupled organizationally and physically with retail since
delivery services were first established almost 150 years ago. The location of these
facilities, housing both delivery and retail, was primarily determined based on historical
patterns or the need for delivery service efficiencies — with retail performance typically
being a secondary consideration. The U.S. Postal Service Office of Inspector General
(OIG) has advocated the strategic decoupling of retail from delivery, which allows
management to define roles more clearly, measure results more precisely, and design
operations to be more effective.6 While delivery operations require low-cost facility
space that is easily accessible to carrier routes, retail needs convenient customer
locations to maximize net revenue.

As the time carriers spend in the office sorting mail has declined and the amount of time
spent delivering mail has increased, the number of carrier routes has declined. The
decline in carrier time is a result of both the
advancement of automated mail processing                    Delivery unit optimization
                                                            is motivated by a rapidly
technologies and mail volume declines in letters and
                                                            changing environment for
flats. Fewer carrier routes mean less need for carrier      mail service and a decline
space in facilities. In addition, in some cases, there      in delivery space needs.
could be excess space due to space planning that was
based on past projections of increasing mail volumes. Alternatively, some excess space
could also just be a carryover from a time with higher demand or different
demographics.

This paper seeks to model an efficient way to optimize that excess space. As the Postal
Service seeks to address the need for delivery unit optimization, several key questions
arise: How can it restructure its delivery network to meet service requirements at a
minimal cost? How can it determine which facilities should be closed, which should
remain open, and if new space should be acquired? How should carrier routes be
assigned to facilities?



6
 U.S. Postal Service Office of Inspector General, Retail and Delivery: Decoupling Could Improve Service and Lower
Costs, Report No. RARC-WP-11-009, September 22, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-009.pdf.


                                                        1
U.S. Postal Service Office of Inspector General                                                 September 10, 2012
A Framework for Delivery Network Optimization                                                     RARC-WP-12-015


As a practical matter, it is important to consider these questions by starting with the
current network, an approach this framework follows. The focus of this work is to
explore the issues associated with modeling the dynamics of delivery operations.
Because the retail and delivery networks are currently coupled, determining how to treat
the retail portion of the network was challenging. In this analysis, retail functions are left
unchanged at facilities that are not closed. For facilities that are closed, we assume that
the retail functions and their related costs will transition to other existing postal retail
units. Although previous OIG research has shown that changing facility locations can
have implications for retail revenue, no attempt was made to include these effects.7
Similarly, the analysis presented here does not include any costs from moving retail
services to new locations. If the Postal Service decided to keep the existing retail units
either in their current buildings or move them to new locations, the modeling framework
could be adjusted to accommodate these decisions.

Current Postal Service Delivery Network Optimization Efforts

The Postal Service has already undertaken some delivery optimization efforts. Postal
Service Delivery Unit Optimization (DUO) guidelines inform management of the
operational efficiencies available from relocating delivery operations.8 The main source
of cost savings is from consolidating clerk labor and reducing postmaster supervisory
levels. The postmaster level computations are complex and based on a number of
factors, including the number of carriers.9 Implementation is further complicated by
questions of whether or for how long postmasters retain pay level.

Over the past few years, the Postal Service has added a mapping module that helps
delivery specialists perform DUO studies. The module allocates ZIP Codes of routes to
facilities within a limited local area. The module computes travel distances between
carrier routes and delivery units and factors in facility and labor costs. In addition to
analyzing local scenarios, the module suggests alternatives for consideration. Using the
DUO guidelines and mapping module, a delivery specialist identifies changes to delivery
operations in a local area.

Benefits of a Global Optimization Model

DUO is a useful first step that optimizes a local delivery area; however, a strategic
framework and global optimization model that considers all alternatives would enhance
these efforts. Computer-aided optimization tools
                                                        A strategic framework and global
can help to provide optimal, or at least near-          optimization model would enhance
optimal, solutions for complex systems. The             the Postal Service’s Delivery Unit
modeling framework in this paper shows how              Optimization efforts.
integer programming location optimization

7
  U.S. Postal Service Office of Inspector General, Analyzing the Postal Service's Retail Network Using an Objective
Modeling Approach RARC-WP-10-004, June 14, 2010, http://www.uspsoig.gov/foia_files/RARC-WP-10-004.pdf.
8
  U.S. Postal Service, Delivery Unit Optimization Guidelines, Version 1.1, December 2010.
9
  U.S. Postal Service, PS Form 150: Postmaster Workload Information. The PS Form 150 Auto Worksheet is an
Excel macro-based spreadsheet that collects data from several postal data sources to compute Post Office level.


                                                          2
U.S. Postal Service Office of Inspector General                                   September 10, 2012
A Framework for Delivery Network Optimization                                       RARC-WP-12-015


models can be applied to the delivery network. Such models enable management to
consider different scenarios and test solution robustness for different forecasts of
economic and demographic variables. Model results are based on actual, detailed
facility data to minimize facility and labor costs. Making modeling tools like this available
to analysts can be of significant assistance to the Postal Service in rationalizing the
delivery network.

Current Delivery Network
Delivery units provide the facility space and support for carriers to collect and prepare
mail before they leave to deliver their route. The basic duties performed at these units
include receiving mail from the processing plant, distributing mail to carrier routes,
providing a place for carriers to sort mail, and offering space for loading and securing
carrier vehicles. In 2011, there were a total of 23,752 delivery units. As an example,
Figure 1 shows the delivery units and service areas of the Los Angeles district.

             Figure 1: Current Delivery Units and Service Areas for Los Angeles District




Source: U.S. Postal Service Address Information System Data




                                                      3
U.S. Postal Service Office of Inspector General                                            September 10, 2012
A Framework for Delivery Network Optimization                                                RARC-WP-12-015


As mentioned, delivery operations have been coupled traditionally with retail. Figure 2
presents the number of retail and delivery facilities and contract postal units. Nationally,
the vast majority of delivery units also provide retail service. Only 592 of these units are
carrier annexes that only provide delivery support. The Postal Service offers retail
service through 8,394 other retail-only postal facilities and 3,610 Contract Postal Units
(CPUs). This framework for delivery network optimization focuses on the 23,752
facilities containing delivery operations, which comprise approximately 67 percent of the
35,756 delivery and retail locations.

                   Figure 2: Retail and Delivery Facilities and Contract Postal Units


                                                    Delivery
                                            CPUs     Only
                                            3,610     592
                                            10%       2%



                                 Retail Only
                                  Facilities
                                   8,394
                                    23%                    Retail & Delivery
                                                              Facilities
                                                                23,160
                                                                  65%




Source: U.S. Postal Service, Fiscal Year (FY) 2011 Annual Report and Address Information System


In 2011, there were a total of 252,006 carrier routes within the United States.10 Over half
of carriers are within 2 miles of their delivery unit and more than 75 percent are within
4 miles of their delivery unit. The average carrier distance to and from their route is
2.8 miles with an average drive time of 4.2 minutes. The total annual cost of carrier
travel to and from their routes is $1.26 billion.11

The total facility space of units that serve carriers is 194.2
                                                                              Currently, there is 366
million square feet, which corresponds to a total cost of
                                                                              square feet of space
$1.91 billion for rent, maintenance, and utilities, including                 available per carrier.
estimated rental values to represent the opportunity cost                     Operational needs require
of owned buildings.12 On average, delivery functions                          only 180 square feet.
occupy 366 square feet per carrier route with an average



10
   U.S. Postal Service, Address Information System (AIS).
11
   See Appendix C for detailed results of OIG’s analysis.
12
   U.S. Postal Service, Facility Management System (FMS), and OIG analysis.


                                                       4
U.S. Postal Service Office of Inspector General                                                       September 10, 2012
A Framework for Delivery Network Optimization                                                           RARC-WP-12-015


cost of $9.78 per square foot. As a carrier route only requires 130 to 180 square feet,
this indicates a significant opportunity for consolidation.13

Eighty percent of facilities only serve a single ZIP Code and 60 percent of delivery
facilities are very small with at most five carrier routes. Only 5 percent of carriers work in
very large facilities with over 80 carrier routes.


Delivery Model Description
The goal of the model is to obtain a minimum cost delivery network while meeting
existing delivery service, consolidating delivery units through facility keep-or-close
decisions, and assigning ZIP Codes of carrier routes to facilities.14 We use a standard
modeling approach for location optimization that uses actual location and cost data
while ensuring that solutions meet existing operational requirements.15

Figure 3 presents the basic cost components that the model minimizes in total: facility
space, delivery support labor, and carrier travel.
The model balances the cost trade-offs between             Delivery network optimization
the number of delivery facilities and carrier travel to minimizes facility space,
                                                           support labor, and carrier
and from routes. That is, the model seeks lower-           travel costs while meeting
cost facility space that is more conveniently              delivery service.
located to carrier routes. Facilities also have a
certain amount of fixed labor, which we associate with a minimum number of delivery
support labor hours at a facility. Eliminating this fixed labor cost along with facility space
costs motivates facility consolidation.

                                   Figure 3: Delivery Model Cost Components




                        Facility                      Support 
                                                                                   Travel Cost
                        Space                          Labor
                  Space, maintenance,            Mail distribution to          Travel between  delivery 
                  and utilities                  P.O. Boxes  and carrier       units and beginning and 
                                                 routes                        end of routes




13
   U.S. Postal Service, Handbook AS-504, Space Requirements, July 1999, Chapter 5, “Delivery Unit Workroom
Floor Planning: City, Rural, and Highway Contract Route Delivery,” p. 201.
14
   We should also note that the basic unit of delivery assignment is the 5-digit ZIP Code. For logistical reasons, it is
difficult to split up ZIP Code service between different delivery units so the model assigns each 5-digit ZIP Code to
one and only one delivery unit.
15
   The focus of the model is to explore the data and methodology for optimizing the delivery network. In practice, the
retail function will play an important role in rationalizing the delivery network, as the two functions are highly coupled.
However, the purpose of this paper is to develop an understanding of the system dynamics of the delivery network.


                                                             5
U.S. Postal Service Office of Inspector General                                                  September 10, 2012
A Framework for Delivery Network Optimization                                                      RARC-WP-12-015


A more detailed description of the costs components follows:

        Facility Space Cost: These costs are for facility space, maintenance, and
         utilities. We base these costs on the 2011 accounting ledger for rent,
         maintenance, and utilities.16 For owned facilities, we use estimated rental values
         to reflect the opportunity cost of the facility.17

        Support Labor Costs: Clerks and small office postmasters at facilities with both
         delivery and retail offices have two duties: to perform the front-end functions of
         retail window transactions and the back-end delivery functions of distributing mail
         to Post Office boxes and to carrier routes. We examine the relationship between
         these responsibilities and workhours with the following regression equation:18

         Labor Hours = 1996.2	 	0.0566	* Transactions                       287.1	*	(Carrier Routes Over 5)	

         The fixed labor hours of the intercept of 1996.2 represent the minimum service
         hours of the facility. Up to five carrier routes of support delivery hours are
         covered by this fixed time; however, the
         support labor hours increase by 287.1 hours           About 2,000 hours, the
         for each additional carrier route. These fixed        equivalent of a single clerk, is
         labor hours and the variable labor hours              required to support up to five
         comprise the delivery support labor hours at          carrier routes.
         the facility. We then use the average clerk
         salary rate to compute clerk labor costs.19 Postmasters can also provide some of
         these functions, particularly at small Post Offices, but since postmasters have
         higher average salaries than clerks, these cost estimates are conservative. The
         regression estimates that each thousand retail transactions add 56.6 labor hours
         to the facility total. For this framework, the transactions of closed offices are
         transferred to a nearby office thus the total network transactional costs do not
         change. As mentioned above, for simplicity the model does not attempt to
         consider the effects of demand changes from moving retail units to new
         locations.

        Travel Cost: This cost is for carrier travel between delivery units and carrier
         routes using real road network routes. We use route mapping software to

16
   U.S. Postal Service, FY 2011 General Ledger costs by Finance number from the Accounting Data Mart, Electronic
Data Warehouse (EDW).
17
   The estimated rent computations are by Anthony Yezer, Professor of Economics, The George Washington
University. He provided them in support of testimony on Post Office Box pricing for the 2006 rate case. The analysis
imputes rental values for Postal Service-owned properties, based on database of Post Office rental properties by 5-
digit ZIP Code. The interior square feet data are provided by FMS. U.S. Postal Service, USPS-LR-L-125 – Supporting
Materials for Post Office Box and Caller Service, Postal Rate Commission Docket No. R2006-1, May 3, 2006,
http://www.prc.gov/prc-pages/library/detail.aspx?docketId=R2006-1&docketPart=Documents&docid=48606.
18
   AIS data provides information on all delivery routes and their associated facilities. Customer Service Variance
(CSV) provides labor and retail data for large delivery units and Small Office Variance (SOV) provides labor and retail
data for small offices.
19
   U.S. Postal Service, USPS-FY11-7 – Cost Segment 3 Cost Pools & Other Related Information (Public Portion),
Postal Regulatory Commission, Docket No. ACR2011, December 29, 2011, http://www.prc.gov/prc-
pages/library/detail.aspx?docketId=ACR2011&docketPart=Documents&docid=79103, USPS-FY11-7 part8.xls, tab
FY11 Productive Hourly Rates, Clerks A-J.


                                                          6
U.S. Postal Service Office of Inspector General                                                     September 10, 2012
A Framework for Delivery Network Optimization                                                         RARC-WP-12-015


         compute travel times and driving distances from the delivery unit to the first stop
         of the carrier route and then from the last stop of the route back to the delivery
         unit.20 Using a national hourly carrier labor rate21 and established vehicle rates
         we compute the total travel costs for this assignment.22 The model does not seek
         to change delivery routes, although additional time may translate into route
         restructuring and additional carriers.

The model considers all solutions that meet certain operational criteria set by the Postal
Service. Specifically, for each carrier route, the model allocates 180 square feet of work
                                                        23
space at a facility that is no more than 15 miles away. The model uses Postal Service
engineering standards to determine the amount of space at facilities that is dedicated to
                    24
delivery functions. Limiting the distance of carrier travel has the additional implicit
advantage of limiting the impact of consolidations on retail service.

Figures 4 and 5 provide a simple illustration of the modeling results given a hypothetical
baseline network of four delivery units and six 5-digit ZIP Codes. This baseline network
has total facility, support labor, and travel costs of $700. The framework considers all of
the possible assignments of ZIP Codes to the surrounding delivery units and determines
a least-cost optimal solution. The optimized network results in two out of four facilities. It
reassigned three 5-digit ZIP Codes and consolidated two delivery units for a total cost of
$585. Certain delivery unit or transportation costs may be higher, but the consolidation
of delivery units maintains delivery service and reduces total costs by $115.




20
   Facility information is provided by FMS. Carrier route information including carrier route type and first and last stop
locations are provided by the AIS. We use the PC Miler Batch Pro software to find the drive time and distance of
street routes to and from the first and last stops of the delivery route and the facility.
21
   The Postal Service’s FY 2011 Annual Compliance Report provides carrier rates per hour. U.S. Postal Service, FY
2011 Annual Compliance Report (ACR), http://www.prc.gov/Docs/79/79166/FY.2011.ACR.pdf.
22
   U.S. Postal Service, Cost Evaluation PS-5505, FY 2011, provides vehicle and tort mileage costs and ownership
hourly costs.
23
   Postal Service facility space guidelines specify that the first 25 routes each require 180 square feet of space and
each additional route requires an additional 130 square feet of space. U.S. Postal Service, Handbook AS-504, Space
Requirements, July 1999, Chapter 5, “Delivery Unit Workroom Floor Planning: City, Rural, and Highway Contract
Route Delivery, p. 201. For our model, if the current work space is less than 180 square feet or at a facility that is
more than 15 miles away, we continue to allow this assignment.
24
   U.S. Postal Service, Handbook AS-504, Space Requirements, outlines the recommended building size for various
carrier routes allocations. The proportions directly due to the 180 square feet per carrier of the total building size
recommendation are averaged to provide the model with guidance as to how much building space is occupied with
carrier assignment. Only this average proportion is made available for carrier route model space assignment.


                                                            7
U.S. Postal Service Office of Inspector General                                                     September 10, 2012
A Framework for Delivery Network Optimization                                                         RARC-WP-12-015

                     Figure 4: Illustration of Modeling Framework – Baseline Network


                                    Total Baseline Network Cost = $700




Note: This figure is a conceptual illustration of model assignment and not illustrative of actual costs.




                     Figure 5: Illustration of Modeling Framework – Optimal Network


                                    Total Optimal Network Cost = $585




Note: This figure is a conceptual illustration of model assignment and not illustrative of actual costs.




                                                            8
U.S. Postal Service Office of Inspector General                                             September 10, 2012
A Framework for Delivery Network Optimization                                                 RARC-WP-12-015


Delivery Model Results
The delivery framework and model results show a significant opportunity to consolidate
the Postal Service’s existing national delivery network. Table 1 shows that, in an
optimized network, delivery units decrease from 23,752 to 13,917 and total costs
decrease by $1.0 billion per year.
                                          Table 1: Delivery Model Results

                                                        Baseline            Optimal          Change
      Delivery Units                                          23,752            13,917             (9,835)
      Carrier Routes                                         252,006           252,006
      Total Cost (millions)                                $ 11,185          $ 10,175          $   (1,010)
     Source: OIG Analysis

Table 2 presents detailed results.25 The average space per carrier route decreases by
34 percent (366 to 241 square feet). The greatest opportunities for facility consolidation
are with the highest-density ZIP Codes where the space per route is high and other
units are nearby; the model consolidates this space by 57 percent (493 to 212 square
feet). Conversely, the lowest-density ZIP Codes have the least, although still significant,
opportunity for consolidation as the model consolidates only 20 percent of this space
(327 to 262 square feet). The model tends to keep facilities with lower costs per square
foot. The average cost per square foot of delivery facility space decreases by
11 percent ($9.78 to $8.67 per square foot).
                                     Table 2: Delivery Model Detailed Results

                                                        Baseline            Optimal          Change
      Total Facility Space (million sq. ft.)                        195.6        126.4               (69.2)
      Space per Route (sq. ft.)                                       366         241                 (125)
      Average Space Cost                                   $         9.78    $    8.67         $     (1.11)

      Average Carrier Travel (miles)                                  2.8             3.7              0.9

      Annual Costs (millions)
        Space Cost                                         $        1,913    $   1,096         $     (817)
        Carrier Travel Cost                                $        1,263    $   1,637         $      374
        Support Labor Cost                                 $        3,982    $   3,416         $     (566)
        Retail Labor Cost                                  $        4,027    $   4,027

      Labor Hours (millions)
         Carrier Travel Hours                                        10.7         13.7                 3.0
         Support Labor Hours                                         95.9         82.3               (13.6)
         Retail Labor Hours                                          97.0         97.0
     Source: OIG Analysis

25
     See Appendix C for additional detailed analysis and results.


                                                               9
U.S. Postal Service Office of Inspector General                                                       September 10, 2012
A Framework for Delivery Network Optimization                                                           RARC-WP-12-015


These consolidations reduce facility space costs by $817 million and support labor costs
by $566 million, but they also come with additional carrier travel costs of $374 million to
obtain the net cost reduction of $1 billion. The model predicts a significant potential
savings of 13.6 million delivery support labor hours. These are associated primarily with
the consolidation of labor hours of small office postmasters and clerks at the smaller
delivery units.

As expected, the consolidation of the delivery network increases the number of carrier
routes at units. Figure 6 shows the number of carrier routes that are in different-sized
delivery units based on the numbers of routes at the unit. It illustrates significant
consolidation as there are notably fewer routes at smaller units with at most 10 routes
and significantly more routes at facilities with more than 80 routes.

                                       Figure 6: Number of Carrier Routes in Units with Number of Routes

                                   100,000
                                    90,000
        Number of Carrier Routes




                                    80,000
                                    70,000
                                    60,000
                                    50,000
                                                                                                           Baseline
                                    40,000
                                                                                                           Optimal
                                    30,000
                                    20,000
                                    10,000
                                        0
                                              1‐5      5‐10      11‐20        21‐40    41‐80   >80
                                                              Carrier Routes in Unit

Source: OIG Analysis


These facility consolidations require additional carrier travel time of 3.0 million hours to
get to and from routes, increasing average carrier travel from 2.8 miles to 3.7 miles.
These average travel distances are impacted the most for the lowest-density ZIP
Codes, increasing from 3.4 miles to 5.8 miles. The very high-density ZIP Codes average
carrier travel increases from 1.7 miles to 2.3 miles. Figure 7 shows the share of carrier
route travel distances. The figure shows a significant decrease in the number of routes
less than a mile from the delivery units and many more routes that are more than 2
miles from the facility.




                                                                         10
U.S. Postal Service Office of Inspector General                                                        September 10, 2012
A Framework for Delivery Network Optimization                                                            RARC-WP-12-015

                                                   Figure 7: Carrier Routes by Travel Distance

                                   100,000
                                    90,000
        Number of Carrier Routes

                                    80,000
                                    70,000
                                    60,000
                                    50,000
                                                                                                          Baseline
                                    40,000
                                                                                                          Optimal
                                    30,000
                                    20,000
                                    10,000
                                        0
                                             0‐1        1‐2       2‐4           4‐8   8‐16       >16
                                                                        Miles

Source: OIG Analysis



Figure 8 illustrates the significant degree to which the model consolidates delivery units
in the Los Angeles district. Of the current 69 Los
Angeles delivery units, 40 provide the capacity to      In the Los Angeles district the
meet service while lowering costs. Each new             current 69 delivery units are
service area is differentiated with color. The white    consolidated in 40 units, resulting
boundary lines represent the current service            in 29 that would close.
areas of delivery units while the gray dotted lines
show the remaining ZIP Code boundaries. The black symbols (58 percent) represent
the buildings that are kept while the gray symbols (42 percent) represent closed
facilities.




                                                                         11
U.S. Postal Service Office of Inspector General                                   September 10, 2012
A Framework for Delivery Network Optimization                                       RARC-WP-12-015

                       Figure 8: Optimal Service Areas for Los Angeles District




Source: OIG Delivery Model Results


In addition to making consolidation of delivery units possible, decoupling them from
retail enables the Postal Service to focus on the unique needs of delivery operations
allowing management, to define delivery roles more clearly, measure results more
precisely, and design operations to be more effective.

Furthermore, there are mailer benefits for increased
consolidation of delivery units. It may reduce             Delivery unit consolidation
transportation costs for drop-shipping mailers and it      may increase drop-ship
may permit drop shipment of mailings that were             mail and improve the
previously prohibited from volume discounts due to         sustainability of that mail.
minimum density requirements due to increased carrier
routes in the new optimized network. This can lower the prices for that mail, increase
mail volume, and improve the sustainability of mail.

As an additional scenario we consider the lower-bound solution in which no delivery
units may be closed. This is the effect of minimizing travel costs without closing any
facilities. For this case, the annual savings from delivery network optimization is a mere


                                                  12
U.S. Postal Service Office of Inspector General                                                September 10, 2012
A Framework for Delivery Network Optimization                                                    RARC-WP-12-015


$53 million. This savings is the result of lowering costs by better assigning carrier routes
to delivery units. As there are barriers to retail optimization, different options could be
considered that would preserve these retail services.26 For example, when the Postal
Service closes a delivery unit, it could leave the retail unit open in its existing location
while renting out the carrier space that is no longer needed. Alternatively, the Postal
Service could relocate the retail unit intact to a new location nearby or contract for
services. Furthermore, this modeling framework could be used to evaluate options that
use excess mail processing plant space or other low cost space. As the Postal Service
considers the needs for the future delivery network, this model could help to plan for
such scenarios or for any other alternatives they would like to consider.

As with all cost models, the results are sensitive to the input data and modeling
assumptions. By making these models available to managers and decision makers,
different scenarios may be considered and the robustness of the results may be
evaluated for different economic, regulatory, or labor factors.

The mathematical formulation of the model is presented in Appendix B and the results
are summarized in Appendix C.

Conclusion
This paper presents a modeling framework for optimizing the delivery network. Using
available Postal Service data and the delivery model, we calculated delivery space and
cost reductions. Allowing retail services of closed offices to move to other postal retail
locations can decrease delivery units from 23,752 to 13,917 and reduce labor and
facility annual costs by $1.0 billion. This solution estimates a savings in 13.6 million
delivery support hours and the need for an additional 3.0 million carrier travel hours.
Note that although the model predicts support labor savings from changes to the
network, it says nothing about how the Postal Service might choose to capture those
savings, including reliance upon attrition or even repurposing existing labor.

A framework for delivery network optimization is necessary to inform management of
efficient and effective operations and ensure objectivity and transparency to key
stakeholders. Further, it enhances the ongoing DUO efforts by the Postal Service and
lays a foundation for future modernization efforts.




26
 U.S. Postal Service Office of Inspector General, Barriers to Retail Network Optimization, Report No.
RARC-WP-11-005, June 9, 2011, http://www.uspsoig.gov/foia_files/RARC-WP-11-005.pdf.


                                                         13
U.S. Postal Service Office of Inspector General         September 10, 2012
A Framework for Delivery Network Optimization             RARC-WP-12-015




                                           Appendices




                                                  14
U.S. Postal Service Office of Inspector General                                       September 10, 2012
A Framework for Delivery Network Optimization                                           RARC-WP-12-015




Appendix A              Workload to Workhour Relationship

The delivery function requires support labor to facilitate the management of carriers and
distribute mail between the routes. For model planning we want to know how much of
this support labor is required at a facility to support a number of routes. In addition to
these back office delivery functions, clerks and small office postmaster labor also
perform front-end retail transactions. We regress actual workhours on the number of
retail transactions and the number of routes to establish a relationship between
workload and workhours.

An interesting observation we found is that clerk and postmaster hours at small delivery
units with at most five carrier routes appear to be driven by minimum service hours
rather than by workload. For these small delivery units of one to five routes, actual labor
hours are relatively constant at about 1996.2 labor hours per year, roughly the number
of hours of a full-time equivalent staff. We set this as the intercept of the regression,
fitting the regression line to the relevant range of facilities with at least five routes.

The labor regression (and the regression coefficient t-values) are as follows:

        actual workhours at facility	 	

     number of retail transactions at facility	 	

      number of carrier routes over five	at facility	 	

                                       1996.2         0.0566 ∗            287.1 ∗

                                 																										 87.15 											 86.76

We tested scale and cross terms, but employing higher order terms does not cause a
significant departure from the linear model results.




                                                         15
U.S. Postal Service Office of Inspector General                                                            September 10, 2012
A Framework for Delivery Network Optimization                                                                RARC-WP-12-015




Appendix B                       Model Formulation and Scenarios

Facility Location Problem

The delivery network model we formulate here is a variation of the classical facility
location integer programming problem. The objective of this model is to obtain a least
cost delivery network by assigning 5-digit ZIP Codes to delivery facilities, deciding which
delivery units to keep and which to close. The basic cost components involve facility
costs, labor costs, and carrier travel costs to and from routes. After presenting the
general model formulation, we discuss how we model the cost data for the Delivery
Model in addition to two additional cases that test model robustness. We briefly
describe the solution methodology.

Data

      set of 5‐digit ZIP Codes,		 	 ∈ 	

      set of facility sites,		 	 ∈ 	

      number of carrier routes in 5‐digit ZIP Code	 	

      carrier route capacity at facility	 	

       carrier travel costs if carrier routes in ZIP Code	 are assigned facility		

         		1     if 5‐digit ZIP Code	 	may be assigned to facility	 27
           0       otherwise																																																																												
      fixed charge for facility	 	

      variable costs for more than 5 carrier routes at facility	 	

Decision Variables

             1   if keep facility	
        		
             0   otherwise										

         		1     if 5‐digit ZIP Code	 	is assigned to facility	
           0     otherwise																																																																


27
  To limit the problem size, the set of permissible ZIP-to-facility assignments is limited. We set this data to one if the
ZIP Code-to-facility assignment is permissible and zero otherwise. An assignment is permissible if (1) the average of
the crow’s flight distances between the facility and the carrier route first and last stops in the ZIP Code is less than 15
miles, (2) the facility is one of the three closest to the ZIP Code or (3) the ZIP Code is currently assigned to the
facility.


                                                                         16
U.S. Postal Service Office of Inspector General                                                      September 10, 2012
A Framework for Delivery Network Optimization                                                          RARC-WP-12-015


         number of routes, at most 5, served by fixed labor	at facility	

       number of routes above 5 at facility	

   	 	       number of routes at facility	

Optimization Model

Minimize	            	
             j∈          j∈            ∈
                                      	∈

Subject to

assignment definition                                           1                      for all 	 ∈
                                               j	∈


link                                                                  														   for all 	 ∈ , 	 ∈

capacity                                                                               for all 	 ∈
                                           ∈


definition of      	 	                                      	                          for all 	 ∈
                                                                 ∈

definition of                                        0 	              	5               for all 	 ∈

definition of                                                   	0	                    for all 	 ∈

assignment pruning                                          	                          for all 	 ∈ , 	 ∈

binary constraints                                     ∈ 0,1                           for all 	 ∈ , 	 ∈

                                                       ∈ 0,1                           for all 	 ∈


Computing Data Elements

Most of the data elements are straightforward computations that do not change for
different modeling scenarios. We describe these computations for facility capacity, the
cost of carrier travel for a ZIP Code assignment, and the cost of support delivery labor
per route. The only data element that we change for robustness analysis is , the fixed
facility cost component.

For each current existing delivery unit, most have space dedicated to operational needs
outside of delivery such as retail, Post Office Box, or administrative space. However, for


                                                           17
U.S. Postal Service Office of Inspector General                                                      September 10, 2012
A Framework for Delivery Network Optimization                                                          RARC-WP-12-015


the purposes of our model, only the space available to delivery operations should
accommodate the carrier assignments. According to Postal Service engineering
requirements, there are recommended gross building sizes per average employees and
customers. The percentage of a building occupied by delivery can be estimated by
calculating the space allocated for the carrier per the 180 square foot per carrier
requirement in each recommendation. This space for delivery can be compared to
overall recommended space for the co-located operations. From this method, it was
determined the delivery space takes up 46 percent of the gross building space. This
was used to calculate the space the model could assign for delivery operations. Exterior
building requirements such as parking are not considered in the model.



Facility Capacity28
          46% ∗ 	gross building size for facility	 	

                                                       	/	180	square feet

Carrier Travel Assignment Costs
     29     carrier travel distance if all carrier routes in ZIP Code	 are assigned facility		

     30    carrier travel time if all carrier routes in ZIP Code	 	are assigned facility		

      vehicle cost per mile           $1.48 / mile31

      tort cost per mile         $0.20 / mile32

      ownership cost per hour               $8.60 / hour

     carrier labor cost per hour              $41.93 / hour33

                                         302	 	             ∗      	             ∗      	

Delivery Support Labor Costs
The Delivery Model charges a cost for delivery support labor when a facility has more
than five routes. As we observed with the labor regression, the labor associated with the

28
   U.S. Postal Service, Handbook AS-504, Space Requirements, July 1999, Chapter 5, “Delivery Unit Workroom
Floor Planning: City, Rural, and Highway Contract Route Delivery," p. 201.
29
   Facility information is provided by FMS. Carrier route first and last stop locations are provided by AIS. Distance to
travel to and from the first and last stops of the delivery route and the facility is calculated by PC Miler Batch Pro
software.
30
   Time to drive to and from the first and last stops of the delivery route and the facility is calculated by PC Miler Batch
Pro software.
31
   U.S. Postal Service, Cost Evaluation PS-5505, FY 2011, provides vehicle and tort mileage costs and ownership
hourly costs.
32
   The tort cost component includes expenses related to vehicle accidents.
33
   U.S. Postal Service, Cost Evaluation PS-5505, FY 2011.


                                                            18
U.S. Postal Service Office of Inspector General                                                 September 10, 2012
A Framework for Delivery Network Optimization                                                     RARC-WP-12-015


first five routes is covered by the fixed labor at the facility. For each route over five at a
delivery unit we have a labor cost of

                                                       287.1 ∗

where

                                clerk labor cost per hour	            $41.5148 / hour.34

Facility Fixed Costs
The only model cost element that we adjust to consider different scenarios is fixed cost
associated with a facility. For the Delivery Model, this cost is comprised of the facility
space costs and the fixed labor costs associated with minimum service hours. The fixed
labor hours of 1996.2 associated with a facility are discussed in Appendix A. Note that
while retail costs are part of the cost of providing service, in our model they are provided
by the Postal Service regardless of a facility decision, thus these costs do not vary with
different ZIP Code assignments. Then the fixed facility costs is

                                                                    1996.2 ∗

where

      lease cost for facility	     35	



      owned building estimated rent cost equivalent for facility	                 36



      utilities and maintenance cost for facility	            37	



No Facility Closures Scenario

We test the simple scenario where facilities may not be closed to determine if any
savings are still possible by moving delivery operations between units. This case may
be modeled by simply setting the fixed facility charge to zero. Since the facility may not
be closed, the fixed facility costs are unchanged for different ZIP Code assignments.

34
   U.S. Postal Service, USPS-FY11-7 – Cost Segment 3 Cost Pools & Other Related Information (Public Portion),
Postal Regulatory Commission, Docket No. ACR2011, December 29, 2011, http://www.prc.gov/prc-
pages/library/detail.aspx?docketId=ACR2011&docketPart=Documents&docid=79103, USPS-FY11-7 part8.xls, tab
FY11 Productive Hourly Rates, Clerks A-J.
35
   U.S. Postal Service, FY 2011 General Ledger costs by Finance number from the Accounting Data Mart, Electronic
Data Warehouse (EDW).
36
   The estimated rent computations are by Anthony Yezer, Professor of Economics, The George Washington
University. He provided them in support of testimony on Post Office Box pricing for the 2006 rate case. The analysis
imputes rental values for Postal Service-owned properties, based on database of Post Office rental properties by
5-digit ZIP Code. The interior square feet data are provided by FMS. U.S. Postal Service, USPS-LR-L-125 –
Supporting Materials for Post Office Box and Caller Service, Postal Rate Commission Docket No. R2006-1, May 3,
2006, http://www.prc.gov/prc-pages/library/detail.aspx?docketId=R2006-1&docketPart=Documents&docid=48606.
37
   U.S. Postal Service, FY 2011 General Ledger costs by Finance number from the Accounting Data Mart, Electronic
Data Warehouse (EDW).


                                                         19
U.S. Postal Service Office of Inspector General                                             September 10, 2012
A Framework for Delivery Network Optimization                                                 RARC-WP-12-015


The program simply considers if carrier routes can be placed in locations that are more
convenient for the routes. As we expect, the savings potential for such a case are not
great. The results show a savings of $53 million.

Solution Methodology

We used the Operations Research module developed by SAS to solve this facility
location integer programming problem. We used the following techniques to make the
problem tractable:

     1) Solved each district individually.

     2) ZIP Code assignments were limited to facilities that are:

             a. Less than 15 miles from the ZIP Code,

             b. Currently serving the ZIP Code or

             c. One of the three closest facilities.

     3) The model first solves the problem excluding the fixed facility and labor costs.
        This “primer” solution provides a starting feasible solution to the larger problem.38

These techniques reduce the processing time to run the model obtaining solutions that
are within 3 percent of optimal for all districts.




38
  SAS, SAS/OR(R) 9.22 User's Guide: Mathematical Programming,
http://support.sas.com/documentation/cdl/en/ormpug/63352/PDF/default/ormpug.pdf, Example 18.3, Facility Location,
pp. 1188-96. This example demonstrates a similar SAS OPTMILP formulated problem.


                                                       20
U.S. Postal Service Office of Inspector General                                        September 10, 2012
A Framework for Delivery Network Optimization                                            RARC-WP-12-015




Appendix C              Results in Detail

To gain some insight into the national results, we break down the results geographically
and by the population density of ZIP Codes. We consider the four census regions of the
Northeast, Midwest, South, and West. We categorize 5-digit ZIP Codes into five
population density categories shown in Table 3. In Figure 9 we map these geographic
regions and ZIP Codes with darker shading for higher-density ZIP Codes.

                          Table 3: ZIP Code Population Density Categories

            ZIP Code             Population Density           Population           Percent
            Category              (ppl per sq mile)            (millions)         Population
       Very High Density               Over 6000                    43.8              15.4%
       High Density                   2000 - 6000                   72.2              25.3%
       Medium Density                 500 - 2000                    61.7              21.6%
       Low Density                      50 - 500                    81.5              28.6%
       Very Low Density                  0 - 50                     25.7               9.0%
     Source: U.S. Census Bureau, 2010 Zip Code Tabulation Area (ZCTA) Data and OIG Analysis



             Figure 9: National Map of Census Regions and Population Density Groups




                                                                                       NORTHEAST

                       WEST                       MIDWEST




                                                            SOUTH




Source: 2010 Census Zip Code Tabulation Area (ZCTA) Data




                                                    21
                                                                                                                                                   A Framework for Delivery Network Optimization
                                                                                                                                                   U.S. Postal Service Office of Inspector General
     Appendix C.1: National Summary Statistics for Delivery Model and No Closures Scenario
                                                             Delivery Model                                   No Facility Closures

                                                Baseline        Optimal           Change         Baseline         Optimal            Change
     Delivery Units                                23,752         13,917             (9,835)        23,752            22,811              (941)
       Delivery Only Units                            592            395               (197)           592               549               (43)
     Carrier Routes                               252,006        252,006                           252,006          252,006
     Total Facility Space (million sq. ft.)         195.6           126.4             (69.2)         195.6             182.5             (13.2)
     Space per Route (sq. ft.)                        366            241               (125)           366               343               (23)
     Average Space Cost                       $       9.78    $      8.67     $       (1.11)   $       9.78     $       9.78
     Number ZIP Codes served                       29,191         29,191                            29,191            29,191
       One ZIP Code Unit                           79.9%           42.6%            (37.3%)         79.9%             80.3%               0.4%
       2-3 ZIP Code Unit                           17.7%           44.8%             27.1%          17.7%             17.9%               0.1%
       Over 3 ZIP Code Unit                         2.4%           12.6%             10.2%           2.4%              1.9%              (0.5%)
     Share Routes in units with
       1-5 Routes                                  14.3%            7.3%             (7.0%)         14.3%              14.5%              0.2%
       6-10 Routes                                  9.5%            8.4%             (1.1%)          9.5%               9.4%             (0.1%)
       11-20 Routes                                14.5%           13.3%             (1.1%)         14.5%              14.2%             (0.2%)
       21-40 Routes                                27.0%           21.5%             (5.5%)         27.0%              27.0%              0.0%
       41-80 Routes                                29.2%           33.5%              4.3%          29.2%              29.3%              0.2%
       Over 80 Routes                               5.6%           16.1%             10.4%           5.6%               5.5%             (0.1%)
     Average Carrier Travel (miles)                   2.8             3.7               0.9            2.8                2.7              (0.1)
     Carrier Travel (miles)
22




       0-1 Miles                                   29.6%            9.0%            (20.6%)         29.6%              15.1%            (14.5%)
       1-2 Miles                                   21.5%           24.1%              2.6%          21.5%              29.6%              8.1%
       2-4 Miles                                   26.9%           37.2%             10.3%          26.9%              38.3%             11.5%
       4-8 Miles                                   16.8%           21.2%              4.4%          16.8%              14.1%             (2.7%)
       8-16 Miles                                   4.5%            7.3%              2.9%           4.5%               2.5%             (2.0%)
       Over 16 Miles                                0.8%            1.2%              0.4%           0.8%               0.4%             (0.4%)
     Annual Costs (millions)
       Space Cost                             $     1,913     $     1,096     $        (817)   $     1,913      $       1,913
       Carrier Travel Cost                    $     1,263     $     1,637     $         374    $     1,263      $       1,210   $          (53)
       Support Labor Cost                     $     3,982     $     3,416     $        (566)   $     3,982      $       3,982
       Retail Labor Cost                      $     4,027     $     4,027                      $     4,027      $       4,027
       Additional CPU Cost
           Total Cost                         $    11,185     $    10,175     $      (1,010)   $    11,185      $      11,132   $          (53)
     Labor Hours (millions)
       Carrier Travel Hours                          10.7            13.7               3.0           10.7               10.2              (0.5)
       Support Labor Hours                           95.9            82.3             (13.6)          95.9               95.9




                                                                                                                                                   September 10, 2012
       Retail Labor Hours                            97.0            97.0                             97.0               97.0




                                                                                                                                                     RARC-WP-12-015
     Cost per Route
       Space Cost per Route                   $     7,590     $     4,347     $      (3,243)   $     7,590      $       7,590
       Average Carrier Travel Cost            $     5,010     $     6,494     $       1,484    $     5,010      $       4,802   $         (208)
       Support Labor Cost per Route           $    15,803     $    13,555     $      (2,248)   $    15,803      $      15,803
       Retail Labor Cost per Route            $    15,980     $    15,980                      $    15,980      $      15,980
       Additional CPU Cost per Route
           Total Cost per Route               $    44,383     $    40,377     $      (4,007)   $    44,383      $      44,175   $         (208)
     Appendix C.2: National Statistics by Population Density ZIP Codes




                                                                                                                                                                                                                                         A Framework for Delivery Network Optimization
                                                                                                                                                                                                                                         U.S. Postal Service Office of Inspector General
                                                   Very High Density                         High Density                       Medium Density                           Low Density                       Very Low Density

                                              Baseline   Optimal    Change        Baseline     Optimal      Change        Baseline   Optimal    Change        Baseline    Optimal      Change        Baseline   Optimal    Change
     Delivery Units                              1,065       719       (346)         2,332       1,828         (504)         2,823     2,281       (542)         8,372      5,957       (2,415)       11,598      7,536     (4,062)
       Delivery Only Units                          66        41        (25)           134         101          (33)           137       113        (24)           253        197          (56)          139        140          1
     Carrier Routes                            30,069     30,069                   59,345       59,345                     52,309     52,309                   73,503      73,503                     36,749     36,749
     Total Facility Space (million sq. ft.)       32.2       13.2     (19.0)          45.8         27.6       (18.2)          38.6       25.6     (13.0)          54.3        40.2       (14.1)          24.7       19.8         (4.9)
     Space per Route (sq. ft.)                     493       212       (282)           364         223         (141)           350       235       (115)           347        260          (86)          327        262           (65)
     Average Space Cost                       $ 10.49    $ 8.22     $ (2.28)      $ 9.44       $ 8.18       $ (1.26)      $ 9.28     $ 8.68     $ (0.60)      $ 9.59      $ 8.82       $ (0.77)      $ 10.66    $ 9.31     $    (1.35)
     Number ZIP Codes served                     1,316     1,316                     2,973       2,973                       3,248     3,248                     9,146      9,146                     12,504     12,504
       One ZIP Code Unit                        55.3%     22.5%         (32.8%)     45.5%       19.5%           (26.0%)     51.7%     21.0%         (30.8%)     74.2%      33.2%           (41.0%)     83.3%     39.2%         (44.1%)
       2-3 ZIP Code Unit                        33.2%     43.8%          10.6%      42.5%       50.9%             8.4%      38.3%     49.2%          10.9%      21.9%      47.1%            25.2%      15.0%     48.1%          33.2%
       Over 3 ZIP Code Unit                     11.5%     33.7%          22.2%      11.9%       29.5%            17.6%      10.0%     29.9%          19.8%       3.9%      19.7%            15.7%       1.7%     12.6%          10.9%
     Share Routes in units with
       1-5 Routes                                0.4%      0.0%          (0.4%)      0.7%        0.1%            (0.6%)      2.1%      0.4%          (1.7%)     15.1%        6.1%           (9.0%)     63.5%     36.9%         (26.6%)
       6-10 Routes                               1.0%      0.2%          (0.8%)      1.6%        0.4%            (1.2%)      4.0%      1.6%          (2.4%)     17.6%       13.1%           (4.5%)     20.8%     28.3%           7.5%
       11-20 Routes                              8.5%      2.1%          (6.4%)      8.7%        3.7%            (5.1%)     13.6%      8.2%          (5.4%)     24.6%       24.7%            0.1%       9.5%     22.6%          13.1%
       21-40 Routes                             36.5%     14.8%         (21.7%)     34.6%       20.7%           (13.9%)     34.5%     26.4%          (8.1%)     23.6%       28.5%            4.9%       3.0%      7.3%           4.3%
       41-80 Routes                             42.0%     38.2%          (3.7%)     45.2%       49.4%             4.2%      39.4%     47.7%           8.3%      16.8%       23.3%            6.5%       2.9%      4.0%           1.1%
       Over 80 Routes                           11.7%     44.7%          33.0%       9.2%       25.7%            16.6%       6.4%     15.7%           9.3%       2.3%        4.4%            2.0%       0.3%      0.9%           0.6%
     Average Carrier Travel (miles)                1.7       2.3            0.6        2.5         3.0              0.5        3.1       3.6            0.5        3.1         3.8             0.8        3.4       5.8            2.4
     Carrier Travel (miles)
23




       0-1 Miles                                36.3%     12.5%         (23.9%)     20.9%        3.3%           (17.6%)     18.5%      2.0%         (16.5%)     31.6%        9.6%          (21.9%)     50.0%     24.0%         (26.0%)
       1-2 Miles                                33.1%     43.4%          10.3%      26.7%       29.2%             2.4%      20.9%     17.9%          (2.9%)     18.2%       21.3%            3.1%      10.8%     14.4%           3.6%
       2-4 Miles                                24.9%     33.2%           8.3%      35.8%       46.0%            10.2%      33.4%     48.1%          14.7%      22.8%       34.7%           11.9%      12.8%     15.5%           2.8%
       4-8 Miles                                 5.1%      9.8%           4.7%      15.6%       20.1%             4.5%      23.5%     28.1%           4.6%      19.5%       24.2%            4.7%      13.6%     16.6%           2.9%
       8-16 Miles                                0.5%      1.0%           0.4%       0.9%        1.2%             0.3%       3.7%      3.7%           0.0%       7.2%        9.7%            2.5%       9.1%     23.0%          13.8%
       Over 16 Miles                               0%      0.2%           0.2%       0.1%        0.2%             0.1%       0.1%      0.3%           0.1%       0.7%        0.5%           (0.2%)      3.5%      6.4%           2.9%
     Annual Costs (millions)
       Space Cost                             $   338    $   109    $     (229)   $   432      $   226      $     (207)   $   358    $   222    $     (136)   $   521     $   355      $     (167)   $   264    $   184    $      (79)
       Carrier Travel Cost                    $    96    $   127    $       30    $   267      $   323      $       56    $   284    $   333    $       49    $   393     $   485      $       92    $   222    $   368    $      146
       Support Labor Cost                     $   383    $   370    $      (12)   $   757      $   736      $      (21)   $   690    $   657    $      (33)   $ 1,157     $   997      $     (160)   $   996    $   655    $     (341)
       Retail Labor Cost                      $   502    $   502                  $   859      $   859                    $   827    $   827                  $ 1,310     $ 1,310                    $   529    $   529
           Total Cost                         $ 1,319    $ 1,108    $     (211)   $ 2,315      $ 2,144      $     (172)   $ 2,158    $ 2,039    $     (119)   $ 3,381     $ 3,147      $     (234)   $ 2,011    $ 1,737    $     (274)
     Labor Hours (millions)
       Carrier Travel Hours                       0.9        1.1           0.3        2.3          2.8             0.5        2.4        2.8           0.4        3.2          3.9            0.7        1.9        3.0           1.1




                                                                                                                                                                                                                                         September 10, 2012
       Support Labor Hours                        9.2        8.9          (0.3)      18.2         17.7            (0.5)      16.6       15.8          (0.8)      27.9         24.0           (3.8)      24.0       15.8          (8.2)




                                                                                                                                                                                                                                           RARC-WP-12-015
       Retail Labor Hours                        12.1       12.1                     20.7         20.7                       19.9       19.9                     31.6         31.6                      12.7       12.7
     Cost per Route
       Space Cost per Route                   $ 11,231   $ 3,613    $ (7,618)     $ 7,281      $ 3,802      $ (3,480)     $ 6,839    $ 4,246    $ (2,593)     $ 7,092     $ 4,825      $ (2,267)     $ 7,177    $ 5,018    $ (2,159)
       Average Carrier Travel Cost            $ 3,205    $ 4,216    $ 1,011       $ 4,504      $ 5,444      $    940      $ 5,424    $ 6,365    $    941      $ 5,344     $ 6,602      $ 1,258       $ 6,047    $ 10,019   $ 3,972
       Support Labor Cost per Route           $ 12,723   $ 12,308   $ (415)       $ 12,755     $ 12,404     $ (351)       $ 13,191   $ 12,563   $ (628)       $ 15,738    $ 13,567     $ (2,171)     $ 27,094   $ 17,823   $ (9,271)
       Retail Labor Cost per Route            $ 16,695   $ 16,695                 $ 14,475     $ 14,475                   $ 15,808   $ 15,808                 $ 17,822    $ 17,822                   $ 14,395   $ 14,395
           Total Cost per Route               $ 43,854   $ 36,832   $ (7,021)     $ 39,015     $ 36,125     $ (2,890)     $ 41,262   $ 38,982   $ (2,280)     $ 45,996    $ 42,817     $ (3,179)     $ 54,714   $ 47,255   $ (7,458)
     Appendix C.3: Summary Statistics for Very High-Density ZIP Codes




                                                                                                                                                                                                                   A Framework for Delivery Network Optimization
                                                                                                                                                                                                                   U.S. Postal Service Office of Inspector General
                                                           Northeast                                Midwest                                      South                                     West

                                              Baseline      Optimal     Change         Baseline      Optimal     Change         Baseline      Optimal      Change         Baseline      Optimal     Change
     Delivery Units                                447          259        (188)            153           125        (28)            126           105         (21)            295           211        (84)
       Delivery Only Units                          23            13        (10)               5             5                        10            10                          18            12         (6)
     Carrier Routes                             11,274       11,274                       4,673         4,673                      3,477         3,477                       9,702         9,702
     Total Facility Space (million sq. ft.)       12.3           4.8           (7.5)         4.1           2.0          (2.1)         2.7           1.6           (1.1)         9.9           4.4          (5.5)
     Space per Route (sq. ft.)                     481          200           (281)         417           211          (206)         379           227           (152)         483           220          (263)
     Average Space Cost                       $ 12.58      $    9.59    $    (2.99)    $   6.97     $    6.20    $    (0.77)    $   9.43     $    8.05     $    (1.37)    $   8.24     $    7.49    $    (0.75)
     Number ZIP Codes served                       528          528                         181           181                        158           158                         395           395
       One ZIP Code Unit                        65.3%         18.9%         (46.4%)      53.6%         37.6%         (16.0%)      50.8%         19.0%          (31.7%)      43.1%         20.4%         (22.7%)
       2-3 ZIP Code Unit                        25.1%         43.2%          18.2%       33.3%         33.6%           0.3%       36.5%         47.6%           11.1%       43.7%         50.7%           7.0%
       Over 3 ZIP Code Unit                      9.6%         37.8%          28.2%       13.1%         28.8%          15.7%       12.7%         33.3%           20.6%       13.2%         28.9%          15.7%
     Share Routes in units with
       1-5 Routes                                  0.6%         0.0%         (0.6%)         0.2%           0%         (0.2%)         0.1%            0%         (0.1%)         0.2%           0%         (0.2%)
       6-10 Routes                                 2.0%         0.3%         (1.7%)         0.5%         0.2%         (0.3%)           0%            0%            0%          0.4%           0%         (0.4%)
       11-20 Routes                               12.3%         2.8%         (9.5%)         4.9%         2.2%         (2.7%)         9.5%          1.9%         (7.7%)         5.7%         1.4%         (4.3%)
       21-40 Routes                               40.6%        14.6%        (26.0%)        35.9%        23.6%        (12.3%)        44.3%         14.2%        (30.1%)        27.9%        11.2%        (16.7%)
       41-80 Routes                               37.8%        34.9%         (3.0%)        46.2%        39.2%         (7.0%)        39.5%         44.5%          5.0%         45.6%        40.9%         (4.6%)
       Over 80 Routes                              6.7%        47.4%         40.6%         12.3%        34.8%         22.4%          6.5%         39.4%         32.8%         20.3%        46.5%         26.2%
     Average Carrier Travel (Miles)                  1.3          2.1           0.8           1.7          2.0           0.3           1.9           2.7           0.8           2.0          2.4           0.4
     Carrier Travel (Miles)
       0-1 Miles                                  52.0%        21.0%        (31.0%)        30.5%         6.6%        (23.9%)        24.9%          5.8%        (19.2%)        25.8%         7.5%        (18.3%)
       1-2 Miles                                  29.1%        41.6%         12.5%         38.3%        57.2%         18.9%         36.2%         38.4%          2.2%         34.1%        40.6%          6.5%
24




       2-4 Miles                                  15.2%        26.3%         11.1%         26.8%        29.9%          3.1%         33.8%         39.5%          5.7%         31.6%        41.1%          9.5%
       4-8 Miles                                   3.7%         9.3%          5.6%          4.3%         6.3%          1.9%          5.1%         15.0%         10.0%          7.3%         9.7%          2.5%
       8-16 Miles                                  0.0%         1.5%          1.5%          0.1%           0%         (0.1%)           0%          0.9%          0.9%          1.2%         0.9%         (0.3%)
       Over 16 Miles                                 0%         0.2%          0.2%            0%           0%            0%            0%          0.5%          0.5%            0%         0.2%          0.2%
     Annual Costs (millions)
       Space Cost                             $     155    $      46    $     (109)    $      29    $      13    $      (16)    $      26    $       13    $      (13)    $      81    $      33    $      (48)
       Carrier Travel Cost                    $      29    $      46    $       17     $      14    $      17    $        3     $      12    $       17    $        5     $      37    $      43    $        6
       Support Labor Cost                     $     145    $     139    $       (7)    $      59    $      58    $       (1)    $      44    $       43    $       (1)    $     122    $     119    $       (3)
       Retail Labor Cost                      $     232    $     232                   $      50    $      50                   $      49    $       49                   $     152    $     152
           Total Cost                         $     561    $     462    $      (99)    $     151    $     137    $      (15)    $     130    $      121    $       (9)    $     392    $     347    $      (45)
     Labor Hours (millions)
       Carrier Travel Hours                          0.3          0.4          0.1            0.1          0.1          0.0            0.1           0.1          0.0            0.3          0.4          0.1
       Support Labor Hours                           3.5          3.3         (0.2)           1.4          1.4         (0.0)           1.1           1.0         (0.0)           2.9          2.9         (0.1)
       Retail Labor Hours                            5.6          5.6                         1.2          1.2                         1.2           1.2                         3.7          3.7
     Cost per Route




                                                                                                                                                                                                                   September 10, 2012
       Space Cost per Route                   $   13,749   $ 4,066      $ (9,683)      $ 6,154      $ 2,715      $ (3,439)      $ 7,436      $ 3,738       $ (3,698)      $ 8,369      $ 3,381      $ (4,988)




                                                                                                                                                                                                                     RARC-WP-12-015
       Average Carrier Travel Cost            $    2,577   $ 4,060      $ 1,482        $ 3,082      $ 3,625      $    543       $ 3,415      $ 4,770       $ 1,355        $ 3,791      $ 4,440      $    650
       Support Labor Cost per Route           $   12,885   $ 12,308     $   (578)      $ 12,571     $ 12,361     $   (210)      $ 12,642     $ 12,338      $   (304)      $ 12,581     $ 12,279     $   (302)
       Retail Labor Cost per Route            $   20,585   $ 20,585                    $ 10,610     $ 10,610                    $ 13,965     $ 13,965                     $ 15,683     $ 15,683
           Total Cost per Route               $   49,797   $ 41,018     $ (8,778)      $ 32,417     $ 29,311     $ (3,106)      $ 37,457     $ 34,811      $ (2,646)      $ 40,424     $ 35,783     $ (4,641)
     Appendix C.4: Summary Statistics for High-Density ZIP Codes




                                                                                                                                                                                                                  A Framework for Delivery Network Optimization
                                                                                                                                                                                                                  U.S. Postal Service Office of Inspector General
                                                           Northeast                                Midwest                                      South                                     West

                                              Baseline      Optimal     Change         Baseline      Optimal     Change         Baseline      Optimal      Change         Baseline      Optimal     Change
     Delivery Units                                568          405        (163)            512          408        (104)            687          549         (138)            483          405         (78)
       Delivery Only Units                          22            17         (5)             33            21        (12)             40            37          (3)             34            27         (7)
     Carrier Routes                             10,691       10,691                      14,058       14,058                      18,684       18,684                       13,913       13,913
     Total Facility Space (million sq. ft.)         9.4          4.7           (4.7)       11.8           6.8           (5.0)       13.1           8.3            (4.8)         9.2          6.6          (2.6)
     Space per Route (sq. ft.)                     415          212           (203)         390          227           (163)         334          216            (118)         315          232            (83)
     Average Space Cost                       $ 13.24      $ 10.93      $    (2.32)    $   7.30     $    6.55    $    (0.75)    $   8.86     $    8.00     $    (0.86)    $   8.49     $    7.78    $    (0.71)
     Number ZIP Codes served                       633          633                         684          684                         927          927                          627          627
       One ZIP Code Unit                        65.5%         24.0%         (41.5%)      42.0%         22.5%         (19.4%)      40.2%         18.8%          (21.4%)      33.3%         14.1%         (19.3%)
       2-3 ZIP Code Unit                        27.1%         45.7%          18.6%       43.0%         44.4%           1.4%       47.3%         51.4%            4.1%       52.8%         60.7%           7.9%
       Over 3 ZIP Code Unit                      7.4%         30.4%          23.0%       15.0%         33.1%          18.0%       12.5%         29.9%           17.4%       13.9%         25.2%          11.3%
     Share Routes in units with
       1-5 Routes                                  2.3%         0.2%        (2.1%)          0.4%         0.1%         (0.4%)         0.2%            0%         (0.2%)         0.3%         0.0%         (0.2%)
       6-10 Routes                                 6.2%         1.6%        (4.6%)          0.8%         0.1%         (0.7%)         0.5%          0.0%         (0.4%)         0.5%         0.0%         (0.5%)
       11-20 Routes                               14.9%         6.9%        (8.0%)          6.6%         2.9%         (3.7%)         9.0%          3.5%         (5.5%)         5.1%         2.1%         (3.0%)
       21-40 Routes                               31.9%        23.0%        (8.9%)         37.0%        22.1%        (15.0%)        38.2%         21.1%        (17.1%)        28.7%        17.5%        (11.2%)
       41-80 Routes                               37.8%        43.6%         5.8%          43.9%        48.4%          4.6%         45.9%         51.0%          5.1%         51.4%        52.2%          0.7%
       Over 80 Routes                              7.0%        24.8%        17.8%          11.3%        26.4%         15.1%          6.2%         24.3%         18.1%         14.0%        28.2%         14.2%
     Average Carrier Travel (miles)                  2.3          3.3          0.9            2.4          2.9           0.4           2.6           3.2           0.6           2.5          2.8           0.3
     Carrier Travel (miles)
       0-1 Miles                                  28.6%         8.0%        (20.6%)        20.3%         2.3%        (18.0%)        18.0%          1.9%        (16.1%)        19.7%         2.7%        (17.0%)
       1-2 Miles                                  27.0%        27.0%          0.0%         27.4%        32.5%          5.1%         25.8%         23.6%         (2.2%)        27.2%        35.2%          8.0%
25




       2-4 Miles                                  30.1%        40.7%         10.6%         36.6%        47.0%         10.4%         37.9%         50.3%         12.3%         37.2%        44.8%          7.5%
       4-8 Miles                                  13.3%        21.4%          8.1%         15.1%        17.2%          2.1%         17.2%         23.2%          5.9%         15.1%        16.3%          1.1%
       8-16 Miles                                  0.8%         2.2%          1.3%          0.6%         1.0%          0.4%          1.1%          0.9%         (0.2%)         0.8%         1.1%          0.3%
       Over 16 Miles                               0.0%         0.6%          0.6%          0.1%           0%         (0.1%)         0.0%          0.3%          0.2%          0.0%         0.0%            0%
     Annual Costs (millions)
       Space Cost                             $     124    $      52    $      (73)    $      86    $      45    $      (41)    $     116    $       67    $      (49)    $      78    $      51    $      (27)
       Carrier Travel Cost                    $      47    $      65    $       18     $      61    $      71    $       10     $      86    $      104    $       18     $      62    $      70    $        8
       Support Labor Cost                     $     142    $     134    $       (8)    $     178    $     174    $       (4)    $     236    $      232    $       (5)    $     175    $     172    $       (3)
       Retail Labor Cost                      $     185    $     185                   $     172    $     172                   $     258    $      258                   $     208    $     208
           Total Cost                         $     498    $     436    $      (62)    $     497    $     462    $      (35)    $     697    $      660    $      (36)    $     524    $     502    $      (22)
     Labor Hours (millions)
       Carrier Travel Hours                          0.4          0.6          0.2            0.5          0.6          0.1            0.7           0.9          0.1            0.5          0.6          0.1
       Support Labor Hours                           3.4          3.2         (0.2)           4.3          4.2         (0.1)           5.7           5.6         (0.1)           4.2          4.1         (0.1)
       Retail Labor Hours                            4.5          4.5                         4.1          4.1                         6.2           6.2                         5.0          5.0
     Cost per Route




                                                                                                                                                                                                                  September 10, 2012
       Space Cost per Route                   $   11,629   $ 4,841      $ (6,788)      $ 6,112      $ 3,172      $ (2,941)      $ 6,215      $ 3,567       $ (2,648)      $ 5,638      $ 3,700      $ (1,938)




                                                                                                                                                                                                                    RARC-WP-12-015
       Average Carrier Travel Cost            $    4,399   $ 6,116      $ 1,717        $ 4,336      $ 5,052      $    716       $ 4,623      $ 5,575       $    951       $ 4,469      $ 5,053      $    584
       Support Labor Cost per Route           $   13,266   $ 12,500     $   (766)      $ 12,659     $ 12,383     $   (275)      $ 12,652     $ 12,399      $   (253)      $ 12,592     $ 12,360     $   (233)
       Retail Labor Cost per Route            $   17,288   $ 17,288                    $ 12,252     $ 12,252                    $ 13,793     $ 13,793                     $ 14,954     $ 14,954
           Total Cost per Route               $   46,582   $ 40,745     $ (5,837)      $ 35,359     $ 32,859     $ (2,500)      $ 37,284     $ 35,334      $ (1,949)      $ 37,653     $ 36,067     $ (1,586)
     Appendix C.5: Summary Statistics for Medium-Density ZIP Codes




                                                                                                                                                                                                                  A Framework for Delivery Network Optimization
                                                                                                                                                                                                                  U.S. Postal Service Office of Inspector General
                                                           Northeast                                Midwest                                      South                                     West

                                              Baseline      Optimal     Change         Baseline      Optimal     Change         Baseline      Optimal      Change         Baseline      Optimal     Change
     Delivery Units                                818          579        (239)            600          514         (86)            853           724        (129)            390           337        (53)
       Delivery Only Units                          26            20         (6)             38            31         (7)             36            33          (3)             27            25         (2)
     Carrier Routes                             12,110       12,110                      12,162       12,162                      17,344       17,344                        7,963         7,963
     Total Facility Space (million sq. ft.)         9.5          5.6           (3.8)         8.7          6.0           (2.7)       12.5            8.4           (4.1)         5.4           4.1         (1.3)
     Space per Route (sq. ft.)                     368          222           (147)         344          240           (105)         343           234           (109)         322           247           (75)
     Average Space Cost                       $ 11.67      $ 10.54      $    (1.13)    $   7.41     $    7.25    $    (0.16)    $   8.56     $    8.13     $    (0.42)    $   9.51     $    8.79    $    (0.72)
     Number ZIP Codes served                       875          875                         731          731                       1,013         1,013                         456           456
       One ZIP Code Unit                        68.9%         24.4%         (44.6%)      42.0%         21.0%         (21.0%)      43.7%         18.5%          (25.2%)      38.5%         16.0%         (22.4%)
       2-3 ZIP Code Unit                        26.7%         43.7%          17.0%       43.0%         45.3%           2.3%       44.4%         52.2%            7.8%       48.5%         56.1%           7.6%
       Over 3 ZIP Code Unit                      4.4%         32.0%          27.6%       15.0%         33.7%          18.7%       11.8%         29.3%           17.4%       13.1%         27.9%          14.8%
     Share Routes in units with
       1-5 Routes                                  3.8%         0.4%         (3.4%)         1.5%         0.5%         (0.9%)         1.4%          0.3%         (1.1%)         1.4%         0.4%         (0.9%)
       6-10 Routes                                 8.8%         2.9%         (5.9%)         1.8%         0.7%         (1.1%)         2.5%          1.1%         (1.3%)         1.6%         0.5%         (1.1%)
       11-20 Routes                               25.0%        14.2%        (10.7%)        10.1%         6.7%         (3.3%)        10.5%          6.2%         (4.4%)         8.6%         5.1%         (3.6%)
       21-40 Routes                               33.1%        28.2%         (4.9%)        34.4%        26.7%         (7.7%)        34.6%         25.8%         (8.8%)        32.1%        23.6%         (8.6%)
       41-80 Routes                               22.7%        36.4%         13.7%         45.5%        49.0%          3.5%         46.3%         52.5%          6.2%         44.7%        54.0%          9.3%
       Over 80 Routes                              6.7%        17.9%         11.3%          6.7%        16.3%          9.5%          4.7%         14.1%          9.4%         11.6%        16.4%          4.9%
     Average Carrier Travel (miles)                  2.6          3.5           0.9           2.9          3.4           0.4           3.5           3.9           0.4           3.0          3.5           0.4
     Carrier Travel (miles)
       0-1 Miles                                  27.7%         3.9%        (23.8%)        17.3%         1.7%        (15.6%)        13.7%          0.8%        (13.0%)        17.1%         1.3%        (15.8%)
       1-2 Miles                                  22.0%        25.9%          3.9%         22.6%        20.3%         (2.3%)        18.5%         10.5%         (8.1%)        21.7%        19.9%         (1.8%)
26




       2-4 Miles                                  28.8%        40.7%         11.8%         35.4%        50.8%         15.4%         34.5%         52.3%         17.8%         35.1%        48.6%         13.4%
       4-8 Miles                                  18.7%        25.3%          6.6%         22.2%        24.2%          2.0%         27.6%         31.8%          4.2%         23.1%        26.9%          3.7%
       8-16 Miles                                  2.8%         3.6%          0.8%          2.5%         2.7%          0.3%          5.5%          4.5%         (1.0%)         2.6%         3.2%          0.6%
       Over 16 Miles                               0.0%         0.6%          0.6%          0.0%         0.3%          0.2%          0.1%          0.1%         (0.0%)         0.2%         0.0%         (0.2%)
     Annual Costs (millions)
       Space Cost                             $     110    $      59    $      (51)    $      65    $      44    $      (21)    $     107    $       68    $      (39)    $      51    $      36    $      (15)
       Carrier Travel Cost                    $      57    $      75    $       18     $      63    $      72    $        9     $     105    $      117    $       12     $      43    $      49    $        6
       Support Labor Cost                     $     167    $     153    $      (14)    $     159    $     152    $       (6)    $     225    $      217    $       (8)    $     102    $      99    $       (3)
       Retail Labor Cost                      $     222    $     222                   $     160    $     160                   $     261    $      261                   $     117    $     117
           Total Cost                         $     557    $     510    $      (47)    $     446    $     427    $      (18)    $     698    $      663    $      (34)    $     314    $     301    $      (12)
     Labor Hours (millions)
       Carrier Travel Hours                          0.5          0.6          0.1            0.5          0.6          0.1            0.9           1.0          0.1            0.4          0.4          0.1
       Support Labor Hours                           4.0          3.7         (0.3)           3.8          3.7         (0.2)           5.4           5.2         (0.2)           2.5          2.4         (0.1)
       Retail Labor Hours                            5.4          5.4                         3.8          3.8                         6.3           6.3                         2.8          2.8
     Cost per Route




                                                                                                                                                                                                                  September 10, 2012
       Space Cost per Route                   $ 9,118      $ 4,913      $ (4,205)      $ 5,314      $ 3,593      $ (1,720)      $ 6,160      $ 3,940       $ (2,220)      $ 6,428      $ 4,504      $ (1,924)




                                                                                                                                                                                                                    RARC-WP-12-015
       Average Carrier Travel Cost            $ 4,729      $ 6,216      $ 1,487        $ 5,156      $ 5,902      $    746       $ 6,042      $ 6,752       $    711       $ 5,439      $ 6,193      $    754
       Support Labor Cost per Route           $ 13,800     $ 12,667     $ (1,133)      $ 13,048     $ 12,532     $   (515)      $ 12,998     $ 12,522      $   (476)      $ 12,840     $ 12,486     $   (354)
       Retail Labor Cost per Route            $ 18,357     $ 18,357                    $ 13,121     $ 13,121                    $ 15,038     $ 15,038                     $ 14,676     $ 14,676
           Total Cost per Route               $ 46,003     $ 42,153     $ (3,850)      $ 36,638     $ 35,149     $ (1,490)      $ 40,237     $ 38,252      $ (1,986)      $ 39,382     $ 37,858     $ (1,524)
     Appendix C.6: Summary Statistics for Low-Density ZIP Codes




                                                                                                                                                                                                                A Framework for Delivery Network Optimization
                                                                                                                                                                                                                U.S. Postal Service Office of Inspector General
                                                           Northeast                                Midwest                                     South                                    West

                                              Baseline      Optimal     Change         Baseline      Optimal     Change        Baseline      Optimal      Change        Baseline      Optimal     Change
     Delivery Units                              2,012         1,192       (820)          2,219         1,691       (528)         3,079         2,254        (825)           804           630       (174)
       Delivery Only Units                          50            32        (18)             73            64         (9)            86            67         (19)            32            33          1
     Carrier Routes                             11,809       11,809                      19,439       19,439                     29,400       29,400                       9,979         9,979
     Total Facility Space (million sq. ft.)         9.7           5.9          (3.8)       13.2          10.8          (2.4)       21.6          16.2           (5.4)         7.8           5.8         (2.0)
     Space per Route (sq. ft.)                     365           236          (129)         323           266           (57)        347           261            (86)        368           275           (93)
     Average Space Cost                       $ 12.31      $ 11.40      $    (0.91)    $   7.77     $    7.32    $    (0.45)   $   9.18     $    8.69     $    (0.49)   $   9.82     $    8.94    $    (0.88)
     Number ZIP Codes served                     2,098         2,098                      2,381         2,381                     3,460         3,460                        909           909
       One ZIP Code Unit                        82.6%         33.5%         (49.1%)      72.5%         37.4%         (35.1%)     72.3%         33.0%          (39.3%)     65.3%         24.3%         (41.0%)
       2-3 ZIP Code Unit                        15.8%         43.5%          27.8%       22.7%         43.5%          20.8%      23.6%         48.7%           25.1%      28.5%         55.1%          26.6%
       Over 3 ZIP Code Unit                      1.6%         23.0%          21.3%        4.8%         19.1%          14.3%       4.2%         18.3%           14.2%       6.2%         20.6%          14.4%
     Share Routes in units with
       1-5 Routes                                 29.5%         9.8%        (19.6%)        14.5%         7.8%         (6.7%)       12.5%          5.0%         (7.5%)        8.2%         2.5%         (5.7%)
       6-10 Routes                                25.4%        17.8%         (7.6%)        20.1%        14.0%         (6.1%)       16.0%         12.6%         (3.4%)        9.4%         8.3%         (1.2%)
       11-20 Routes                               24.1%        27.5%          3.4%         27.0%        28.7%          1.6%        24.5%         23.1%         (1.4%)       19.8%        18.2%         (1.6%)
       21-40 Routes                               14.6%        23.6%          9.0%         21.3%        25.8%          4.5%        27.3%         31.8%          4.5%        26.3%        28.9%          2.6%
       41-80 Routes                                5.7%        18.2%         12.5%         15.2%        19.8%          4.6%        17.4%         23.6%          6.1%        30.2%        33.6%          3.3%
       Over 80 Routes                              0.7%         3.0%          2.3%          1.9%         4.0%          2.1%         2.3%          3.9%          1.7%         6.0%         8.6%          2.6%
     Average Carrier Travel (miles)                  2.0          3.7           1.7           2.4          3.0           0.6          3.7           4.4           0.7          3.5          3.9           0.4
     Carrier Travel (miles)
       0-1 Miles                                  47.7%        18.1%        (29.6%)        39.3%        16.0%        (23.4%)       24.1%          4.5%        (19.6%)       22.9%         4.7%        (18.2%)
       1-2 Miles                                  18.0%        28.6%         10.6%         20.0%        31.6%         11.7%        16.9%         13.6%         (3.3%)       19.4%        18.7%         (0.7%)
27




       2-4 Miles                                  18.4%        19.1%          0.7%         20.8%        30.9%         10.1%        24.5%         41.0%         16.5%        26.5%        40.9%         14.4%
       4-8 Miles                                  12.5%        20.8%          8.3%         15.2%        15.0%         (0.2%)       23.6%         29.4%          5.8%        21.6%        26.5%          4.9%
       8-16 Miles                                  3.3%        13.0%          9.7%          4.5%         6.1%          1.6%         9.7%         10.9%          1.3%         8.5%         8.8%          0.3%
       Over 16 Miles                               0.1%         0.4%          0.3%          0.2%         0.4%          0.2%         1.2%          0.6%         (0.6%)        1.1%         0.4%         (0.6%)
     Annual Costs (millions)
       Space Cost                             $     119    $      67    $      (52)    $     102    $      79    $      (23)   $     198    $      140    $      (58)   $      76    $      52    $      (25)
       Carrier Travel Cost                    $      42    $      76    $       34     $      81    $      99    $       18    $     188    $      219    $       31    $      62    $      69    $        7
       Support Labor Cost                     $     218    $     165    $      (52)    $     302    $     267    $      (35)   $     452    $      397    $      (55)   $     143    $     130    $      (13)
       Retail Labor Cost                      $     239    $     239                   $     312    $     312                  $     508    $      508                  $     186    $     186
           Total Cost                         $     617    $     546    $      (71)    $     797    $     757    $      (40)   $   1,346    $    1,264    $      (82)   $     468    $     437    $      (30)
     Labor Hours (millions)
       Carrier Travel Hours                          0.4          0.6          0.3            0.7          0.8          0.1          1.5           1.8           0.2           0.5          0.6          0.1
       Support Labor Hours                           5.2          4.0         (1.3)           7.3          6.4         (0.8)        10.9           9.6          (1.3)          3.4          3.1         (0.3)
       Retail Labor Hours                            5.7          5.7                         7.5          7.5                      12.2          12.2                         4.5          4.5
     Cost per Route




                                                                                                                                                                                                                September 10, 2012
       Space Cost per Route                   $   10,074   $ 5,678      $ (4,395)      $ 5,259      $ 4,066      $ (1,192)     $ 6,746      $ 4,776       $ (1,969)     $ 7,642      $ 5,182      $ (2,460)




                                                                                                                                                                                                                  RARC-WP-12-015
       Average Carrier Travel Cost            $    3,554   $ 6,394      $ 2,840        $ 4,166      $ 5,093      $    926      $ 6,392      $ 7,439       $ 1,047       $ 6,213      $ 6,896      $    684
       Support Labor Cost per Route           $   18,420   $ 13,997     $ (4,423)      $ 15,548     $ 13,752     $ (1,796)     $ 15,368     $ 13,488      $ (1,881)     $ 14,319     $ 13,040     $ (1,279)
       Retail Labor Cost per Route            $   20,205   $ 20,205                    $ 16,052     $ 16,052                   $ 17,290     $ 17,290                    $ 18,681     $ 18,681
           Total Cost per Route               $   52,253   $ 46,274     $ (5,979)      $ 41,025     $ 38,963     $ (2,062)     $ 45,796     $ 42,993      $ (2,803)     $ 46,855     $ 43,800     $ (3,055)
     Appendix C.7: Summary Statistics for Very Low-Density ZIP Codes




                                                                                                                                                                                                               A Framework for Delivery Network Optimization
                                                                                                                                                                                                               U.S. Postal Service Office of Inspector General
                                                           Northeast                               Midwest                                     South                                    West

                                              Baseline      Optimal     Change        Baseline      Optimal     Change        Baseline      Optimal      Change        Baseline      Optimal     Change
     Delivery Units                              1,061           703       (358)         4,723         3,061      (1,662)        3,661         2,297       (1,364)        1,881         1,308       (573)
       Delivery Only Units                            8           13          5             44            45           1            41            47            6            41            34         (7)
     Carrier Routes                              2,954         2,954                    14,392       14,392                     11,421       11,421                       7,004         7,004
     Total Facility Space (million sq. ft.)         1.6           1.3         (0.3)         8.3           7.1         (1.2)         8.3           6.5          (1.9)         5.7           4.4         (1.3)
     Space per Route (sq. ft.)                     271           216           (56)        284           243           (42)        348           270            (78)        390           303           (86)
     Average Space Cost                       $ 17.59      $ 13.68      $    (3.91)   $   8.76     $    7.95    $    (0.81)   $ 10.37      $    9.43     $    (0.94)   $ 11.16      $    9.54    $    (1.62)
     Number ZIP Codes served                     1,107         1,107                     5,162         5,162                     3,867         3,867                      2,094         2,094
       One ZIP Code Unit                        88.0%         40.5%         (47.5%)     80.5%         43.3%         (37.2%)     84.8%         31.7%          (53.0%)     84.6%         42.0%         (42.6%)
       2-3 ZIP Code Unit                        11.1%         40.1%          29.0%      17.6%         45.6%          27.9%      13.7%         53.5%           39.8%      13.2%         48.8%          35.5%
       Over 3 ZIP Code Unit                      0.8%         19.3%          18.5%       1.9%         11.1%           9.3%       1.5%         14.7%           13.2%       2.2%          9.3%           7.1%
     Share Routes in units with
       1-5 Routes                                 81.1%        42.5%        (38.6%)       68.4%        43.9%        (24.6%)       62.2%         31.0%        (31.2%)       50.3%        31.8%        (18.4%)
       6-10 Routes                                13.1%        23.9%         10.8%        21.0%        27.1%          6.2%        22.8%         32.4%          9.6%        18.5%        25.6%          7.1%
       11-20 Routes                                3.7%        20.1%         16.5%         8.1%        21.1%         13.0%         9.7%         25.1%         15.3%        14.5%        21.7%          7.2%
       21-40 Routes                                0.4%         8.7%          8.3%         2.0%         6.4%          4.4%         2.6%          7.4%          4.8%         6.5%         8.0%          1.5%
       41-80 Routes                                1.8%         2.3%          0.5%         0.4%         1.2%          0.8%         2.2%          3.6%          1.3%         9.7%        11.2%          1.5%
       Over 80 Routes                                0%         2.6%          2.6%         0.1%         0.3%          0.2%         0.5%          0.6%          0.1%         0.5%         1.7%          1.2%
     Average Carrier Travel (miles)                  1.6          5.1           3.4          2.8          5.3           2.6          3.5           6.0           2.5          5.4          6.7           1.3
     Carrier Travel (miles)
28




       0-1 Miles                                  64.9%        31.5%        (33.4%)       59.3%        32.3%        (27.0%)       43.3%         17.7%        (25.5%)       36.6%        15.5%        (21.0%)
       1-2 Miles                                  11.2%        13.6%          2.5%         8.6%        15.1%          6.5%        12.5%         14.2%          1.7%        11.9%        13.7%          1.8%
       2-4 Miles                                  11.5%         9.6%         (1.9%)       10.2%        11.6%          1.4%        15.6%         17.7%          2.1%        13.7%        21.0%          7.3%
       4-8 Miles                                   8.2%        17.9%          9.7%        11.1%        11.8%          0.7%        16.2%         18.9%          2.6%        16.6%        22.3%          5.7%
       8-16 Miles                                  3.8%        23.2%         19.3%         7.8%        22.9%         15.1%         9.5%         25.8%         16.2%        13.2%        17.6%          4.4%
       Over 16 Miles                               0.4%         4.2%          3.8%         2.9%         6.3%          3.3%         2.8%          5.7%          2.9%         7.5%         9.4%          1.8%
     Annual Costs (millions)
       Space Cost                             $      28    $      17    $      (10)   $      72    $      56    $      (16)   $      86    $       61    $      (25)   $      64    $      42    $      (21)
       Carrier Travel Cost                    $       9    $      26    $       17    $      69    $     130    $       60    $      70    $      119    $       49    $      69    $      83    $       14
       Support Labor Cost                     $      86    $      54    $      (33)   $     398    $     265    $     (133)   $     312    $      194    $     (118)   $     175    $     126    $      (49)
       Retail Labor Cost                      $      40    $      40                  $     161    $     161                  $     171    $      171                  $     136    $     136
           Total Cost                         $     162    $     137    $      (26)   $     701    $     612    $      (89)   $     639    $      545    $      (94)   $     443    $     387    $      (56)
     Labor Hours (millions)
       Carrier Travel Hours                          0.1          0.2          0.1           0.6          1.0          0.5           0.6           1.0          0.4           0.6          0.7          0.1
       Support Labor Hours                           2.1          1.3         (0.8)          9.6          6.4         (3.2)          7.5           4.7         (2.8)          4.2          3.0         (1.2)




                                                                                                                                                                                                               September 10, 2012
       Retail Labor Hours                            1.0          1.0                        3.9          3.9                        4.1           4.1                        3.3          3.3




                                                                                                                                                                                                                 RARC-WP-12-015
     Cost per Route
       Space Cost per Route                   $ 9,349      $ 5,854      $ (3,495)     $ 5,029      $ 3,899      $ (1,129)     $ 7,566      $    5,347    $ (2,220)     $ 9,103      $    6,056   $ (3,047)
       Average Carrier Travel Cost            $ 2,915      $ 8,740      $ 5,825       $ 4,812      $ 9,012      $ 4,199       $ 6,118      $   10,435    $ 4,317       $ 9,783      $   11,807   $ 2,024
       Support Labor Cost per Route           $ 29,264     $ 18,254     $ (11,010)    $ 27,672     $ 18,407     $ (9,266)     $ 27,319     $   16,983    $ (10,337)    $ 25,002     $   18,007   $ (6,996)
       Retail Labor Cost per Route            $ 13,453     $ 13,453                   $ 11,208     $ 11,208                   $ 14,934     $   14,934                  $ 19,428     $   19,428
           Total Cost per Route               $ 54,981     $ 46,301     $ (8,680)     $ 48,721     $ 42,525     $ (6,196)     $ 55,938     $   47,699    $ (8,239)     $ 63,316     $   55,298   $ (8,019)
U.S. Postal Service Office of Inspector General                                              September 10, 2012
A Framework for Delivery Network Optimization                                                  RARC-WP-12-015




Appendix D                Data Sources

Address Information System (AIS) provided various data including:
     1. The entire Postal Service address database and the eLOT file, which provides
        sequence numbers for carrier routes. These data sources were used to identify
        the first and last stop for existing carrier routes.
     2. The current 5-digit ZIP Codes to facilities assignment file which was used as a
        basis for the existing or baseline network. This file also included geocodes for
        21,779 of the 23,866 delivery facilities.39

FMS and Facility Database (FDB) information regarding facilities was obtained from
Electronic Data Warehouse (EDW) including:
     3. The square footage information available for delivery operations. The square
        footage was increased for 680 facilities when the square footage required by the
        existing assigned carrier routes exceeded the amount of available according to
        FMS. The square footage was decreased for processing facilities identified
        through an FDB category field by limiting them to a maximum space that could
        hold 80 carriers.
     4. The geocodes for 1,971 facilities without geocodes from assignment file #2.
     5. Additional facility information for the facilities identified in the assignment file #2.

General ledger
     6. The Postal Service general accounting ledger for fiscal year (FY) 2011 was used
        to obtain lease costs (line item #41), maintenance costs (line items #37, 3F, and
        49), and also utility costs (line item #42).
     7. The ledger was also used to determine the retail revenue per facility (line items
        #3, 4, and 5).

Variance programs
     8. Variance program data (specifically the Customer Service Variance, or CSV, and
        Small Office Variance, or SOV, files) from the Postal Service were used to
        assess labor data and transactional data at delivery units. Hours related to Labor
        Distribution Codes 41(automation), 42 (mech), 44 (P.O. Box), and 46 (Vending)
        were removed because they were found to be unrelated to routes. LDC45
        (Window), was kept in for two reasons –
           a. the SOV file doesn't separate this work
           b. at CSV locations, clerks rotate back and forth while serving customers as
               they arrive

39
   In order to determine the most desirable geocode source, the accuracy of the AIS information was compared to
that from FMS. Most geocodes were identical, but in the cases where the two differ, an experiment was designed to
study the more accurate source. In the experiment, the different geocodes were gathered and then a random sample
of 40 of these differing geocodes was analyzed for accuracy. The results showed AIS had a significantly more
accurate geocode for 36 out of the 40 and FMS was accurate only once out of the 40 samples.


                                                       29
U.S. Postal Service Office of Inspector General                                 September 10, 2012
A Framework for Delivery Network Optimization                                     RARC-WP-12-015




Appendix E              Actual versus Baseline

To test the model’s accuracy, the current assignment of ZIP Codes to delivery units was
input through the model and compared to the actual costs and statistics from the postal
data systems listed in Appendix C. As shown in Table 4 below, the model reflects the
actual costs of the operations considered within 1.8 percent.

                Table 4: Model Reflection of Current Costs versus the Actual Costs

                                                              Fiscal Year       Model
                                NAME                          2011 USPS        Baseline
                                          Total Facilities           23,752       23,752
                                 Delivery Only Facilities               592           592
                                    Retail Only Facilities              -             -
                     Delivery & Retail Mixed Facilities              23,160       23,160
                 Square Foot for Delivery (million sq ft)             195.6        195.6
                                          Carrier Routes           252,006       252,006
                                               Sqft / Car               776          776
                                                     Zips            29,196       29,196
                                         Routes / Facility             10.6          10.6
                                               Zips / Fac                1.2           1.2
                Labor Hours (Clerk, SV, PMs) (millions)               194.9        192.9
                Labor Costs (Clerk, SV, PMs) (billions)               $7.88        $8.05
                                  Transactions (billions)               1.84          1.72
                                      Revenue (billions)             $10.21       $10.12
                                   # of Leased Facilities            17,307       17,307
                                   # of Owned Facilities              6,559        6,559
                                  Lease Costs (millions)             $702.6       $721.0
                         Owned "Valuations" (millions)             -              $848.9
                      Utilities / Maintenance (millions)             $342.7       $342.8
        Source: U.S. Postal Service, FY 2011 General Ledger




                                                     30
